No. 20-569
In The

Supreme Court of the United States
______________

ELIM ROMANIAN PENTECOSTAL CHURCH and LOGOS
BAPTIST MINISTRIES,
Petitioners,
v.
JAY ROBERT PRITZKER, in his official capacity as
Governor of the State of Illinois,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
AMICUS BRIEF OF THE AMERICAN CENTER FOR
LAW AND JUSTICE IN SUPPORT OF
PETITIONERS
JAY ALAN SEKULOW
Counsel of Record
STUART J. ROTH
COLBY M. MAY
LAURA B. HERNANDEZ
AMERICAN CENTER FOR
LAW & JUSTICE
201 Maryland Ave. NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org

Attorneys for Amicus Curiae

1
INTEREST OF AMICUS*
The American Center for Law and Justice (ACLJ)
is an organization dedicated to the defense of
constitutional liberties secured by law. ACLJ
attorneys often appear before this Court as counsel
either for a party, e.g., Pleasant Grove City v.
Summum, 555 U.S. 460 (2009), or for amicus, e.g.,
Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct. 2246
(2020). The ACLJ is dedicated, inter alia, to religious
liberty and freedom of speech.
SUMMARY OF THE ARGUMENT
Review is necessary here for all the reasons set
forth in the petition for certiorari. Additionally,
amicus urges this Court to grant summary reversal of
the Seventh Circuit’s ruling that Order 32 did not
unconstitutionally target religion by limiting religious
worship to ten persons while imposing no limit with
respect to other activities in the same churches. Order
32’s religious gerrymander is indefensible under
settled Free Exercise Clause law.

*Counsel

of record for the parties received notice of the intent to
file this brief and emailed written consent to its filing. No counsel
for any party in this case authored this brief in whole or in part.
No person or entity aside from Amicus, their members, or their
respective counsel made a monetary contribution to the
preparation or submission of this brief.

2
ARGUMENT
Order 32 restricts in-person worship services to 10
persons within religious facilities but allows unlimited
numbers to assemble in the same buildings to receive
social services including meals, shelter, education and
counseling. Order 32 thus allows petitioners to
provide secular services for, say, 100 people, but
religious services for only 10 of those same people, at
the same time, in the same place. One hundred people
can eat a meal in the building but only 10 can receive
communion. When petitioners are teaching or feeding
or sheltering 100 people but then begin religious
worship service with those same people, 90 of them
must leave. This is utterly irrational.
Further, it is unconstitutional. The Free Exercise
Clause forbids laws with the object of suppressing
religious worship or imposing a special disability on
religious practice. Order 32’s religious gerrymander
accomplishes both.
I. Summary Reversal Is Appropriate Here.
Summary reversal is appropriate where the court
below has “egregiously misapplied settled law.”
Wearry v. Cain, 136 S. Ct. 1002, 1007 (2016).
Disregard of a controlling decision from this Court is
grounds for summary reversal. See, e.g., Thompson v.
Hebdon, 140 S. Ct. 348 (2019) (granting summary
reversal where lower court ignored controlling
decision in Randall v. Sorrell, 548 U.S. 230 (2006)).
See generally Eugene Gressman et al., Supreme Court
Practice 344 (9th ed. 2007) (noting that summary

3
reversal is granted where “the lower court result is
clearly erroneous, particularly if there is a controlling
Supreme Court precedent to the contrary.”) (cleaned
up). Settled Free Exercise Clause law requires that
Order 32’s discriminatory restrictions on religious
worship be held unconstitutional.
II.

The Seventh Circuit Refused to Apply
Settled Free Exercise Clause Law to Order
32’s Imposition of a Special Disability on
Religious Worship.

Enshrined in the Free Exercise Clause is the
principle that government may not suppress religious
belief or practice. Church of Lukumi Babalu Aye v.
City of Hialeah, 508 U.S. 520, 523 (1993). This
principle is “so well understood” that there are few
cases in which it has been violated. Id. Laws that
subject religious entities to unequal treatment or that
impose special disabilities based on religious status
must undergo the strictest scrutiny. Trinity Lutheran
Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012,
2019 (2017) (cleaned up).
This Court’s decision in Lukumi, which struck
down laws banning certain forms of religious worship,
508 U.S. at 532, required the Seventh Circuit to hold
unconstitutional Order 32’s religious gerrymandering.
In Lukumi, three ordinances facially prohibited
animal killings but in fact targeted only sacrificial
rituals essential to the Santeria religion. Id. at 535.
The laws did not apply to animal killings performed
for numerous secular reasons but prohibited only
those associated with Santeria animal sacrifice. Id. at

4
542. Because the ordinances had as their object the
suppression of religion, they failed strict scrutiny. Id.
at 534, 546.
Worse than the ordinances in Lukumi, Order 32
does not even try to hide behind a pretext of facial
neutrality. The Order blatantly targets religious
worship for third class treatment by subjecting it to a
unique disability inapplicable to all the other
activities in the churches. Secular activities are
permissible without any numerical limit on persons
attending but religious worship is restricted to ten
persons. Under Lukumi, Order 32’s religious
gerrymander cannot survive strict scrutiny. See id. at
546. Indeed, given the general scientific consensus
about how the coronavirus is transmitted,1 Order 32’s
religious gerrymander could not even satisfy rational
basis review.

See, e.g., Coronavirus disease (COVID-19): How is it
transmitted? World Health Organization (last updated Oct. 20,
2020),
https://www.who.int/news-room/q-a-detail/coronavirusdisease-covid-19-how-is-it-transmitted,

1

5
CONCLUSION
Amicus respectfully requests this Court to grant
review and summarily reverse the lower court’s
ruling that Order 32’s discriminatory treatment of
religious worship is constitutional.
Respectfully submitted,
JAY ALAN SEKULOW
Counsel of Record
STUART J. ROTH
COLBY M. MAY
LAURA B. HERNANDEZ

AMERICAN CENTER FOR
LAW & JUSTICE
201 Maryland Ave. NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org

